APPENDIX

la
APPENDIX A
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-103
In re: TCT Mobile International Limited,
Petitioner
On Petition for Writ of Mandamus to the
United States District Court for the Eastern District
of Texas in No. 2:18- cv-00194-JRG,
Judge J. Rodney Gilstrap.
ON PETITION
Before Dyk, WALLACH, and TARANTO, Circuit
Judges. WALLACH, Circuit Judge.
ORDER
TCT Mobile International Limited (“TCT
International”) petitions for a writ of mandamus
compelling the United States District Court for the
Eastern District of Texas to dismiss for lack of
personal jurisdiction.
Semcon IP, Inc. brought this suit in the Eastern
District of Texas against TCT International, a Hong
Kong company with no offices or employees in Texas.

2a
The complaint accuses TCT International of infringing
or actively inducing others to infringe four patents by,
inter alia, importing certain smartphones into the
United States.
TCT International moved to dismiss the complaint
for lack of personal jurisdiction. TCT International
argued that the extent of its involvement was purchas­
ing the accused products from a related entity and
then selling them in Hong Kong to another related
entity, TCT Mobile (US) Inc. (“TCT US”). TCT
International argued that it had no control over TCT
US’s import and sale of the accused products into the
United States, particularly in Texas.
The district court denied the motion. In doing so,
it concluded that Semcon had provided “sufficient
evidence that, ‘acting in consort’ with TCT US, TCT
International deliberately and purposefully shipped
Accused Products to Texas.” It did so after noting that
TCT International “regularly ships Accused Products
ordered by TCT US to a warehouse in Fort Worth,
Texas” and an individual “personally travelled to Texas
in his capacity as an employee of TCT International to
‘take a look at the location of our handsets after they
have been sold to [TCT US].
999*

A writ of mandamus is a “drastic and extraordinary
remedy reserved for really extraordinary causes.”
Cheney v. U.S. Dist. Court for Dist. of Columbia, 542
U.S. 367, 380 (2004) (internal quotation marks and
citation omitted). A petitioner must satisfy three
requirements: (1) the petitioner must “have no other
adequate means to attain the relief desired; (2) the
We note that TCT International argues in its petition
that this individual was not actually an employee of TCT
International. We take no position on that issue here.

3a
petitioner must show that the “right to issuance of the
writ is clear and indisputable”; and (3) the petitioner
must convince the court that the writ is “appropriate
under the circumstances.” Id. at 380-81 (internal
quotation marks and citations omitted).
Because a defendant can obtain meaningful review
of a denial of a motion to dismiss for lack ofjurisdiction
after final judgment, mandamus is ordinarily not
available. See In re BNY ConuergEx Grp., LLC, 404 F.
App’x 484, 485 (Fed. Cir. 2010). We see no exceptional
circumstances here to depart from that general rule.
TCT International cannot justify an end run around
the final judgment rule by arguing that “the financial
harm and inconveniences associated with forcing” it
“to litigate in Texas will [already] have been done.”
As the Supreme Court has explained, “extraordinary
writs cannot be used as substitutes for appeals . . .
even though hardship may result from delay and
perhaps unnecessary trial.” Bankers Life & Cas. Co. v.
Holland, 346 U.S. 379, 383 (1953) (citations omitted).
Accordingly,
It Is Ordered That:
The petition is denied.
November 06. 2019
Date
For The Court
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
s32

4a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CIVIL ACTION NO. 2:18-CV-00194-JRG
Semcon IP Inc.,

Plaintiff,
v.
TCT Mobile International Limited,
TCL Communication Technology Holdings Limited,
Defendants.
MEMORANDUM OPINION AND ORDER
Before the Court is Defendant TCT Mobile
International Limited’s (“TCT International”) Rule
12(b)(2) Motion to Dismiss (the “Motion”). (Dkt. No.
14.) By its Motion, TCT International, a Hong Kong
company, asserts that this Court lacks personal juris­
diction over it because it does not manufacture the
products made the subject of this suit nor does it
import them into the United States or offer to sell or
or sell them in the United States. (See id. at 1-3.)
Having considered the briefing and evidence proffered
by the parties, and for the reasons set forth herein, the
Court is of the opinion that the Motion should be and
hereby is DENIED,

5a
I. Background
Semcon IP Inc. (“Semcon”) accuses TCT International
of infringing U.S. Patent Nos. 7,100,061; 7,596,708;
8,566,627; and 8,806,247 “by making, using, selling,
offering to sell, and/or importing, and by actively
inducing others to make, use, sell, offer to sell and/or
importing, products,” such as smartphones, that embody
these patents (the “Accused Products”). (Dkt. No. 1
<j[f 16.) TCT International asserts that it does not
manufacture the Accused Products but instead pur­
chases them from Huizhou TCL Mobile Communication
Co. Ltd. (“TCL Huizhou”). (Dkt. No. 29-2, at 1.) TCT
International in turn sells the Accused Products to
TCT Mobile (US) Inc. (“TCT US”), who then sells the
products to retailers in the United States. (Id.) TCT
International asserts that the sale of the Accused
Products to TCT US occurs in Hong Kong, China and
that it has no control over TCT US’s subsequent
importation or sale of these products into the United
States and into Texas. (Dkt. No. 33, at 5.) Therefore,
TCT International contends that this Court lacks
personal jurisdiction over it. (Dkt. No. 14, at 5.)
II. Legal Standard
Federal Circuit law governs personal jurisdiction
where “a patent question exists.” See Celgard, LLC v.
SK Innovation Co., 792 F.3d 1373, 1377 (Fed. Cir.
2015). “[Wlhether a defendant is subject to specific
personal jurisdiction in the forum state involves two
inquiries: first, whether the forum state’s long-arm
statute permits service of process and, second, whether
the assertion of jurisdiction is consistent with due
process.” Id. “Because the Texas long-arm statute
extends to the limits of federal due process, the twostep inquiry collapses into one federal due process
analysis.” Johnston v. Multidata Sys. Int’l Corp., 523

6a
F.3d 602, 609 (5th Cir. 2008); accord Groper v. Mako
Prod., Inc., 686 F.3d 1335, 1345 (Fed. Cir. 2012)
(“California and federal due process limitations are
coextensive, and thus the inquiry collapses into
whether jurisdiction comports with due process.”).
For due process to be satisfied, the defendant must
have “certain minimum contacts with [the forum]
such that the maintenance of the suit does not offend
traditional notions of fair play and substantial justice.”
Int’l Shoe Co. v. Washington, 326 U.S. 310, 316 (1945)
(internal quotations omitted). “A court must inquire
whether the defendant has ‘purposefully directed his
activities’ at the forum state and, if so, whether the
litigation results from alleged injuries that arise out
of or relate to those activities.’” Breckenridge Pharm.,
Inc. v. Metabolite Labs., Inc., 444 F.3d 1356, 1361-62
(Fed. Cir. 2006) (quoting Burger King Corp. v. Rudzewicz,
471 U.S. 462, 472 (1985)). The minimum contacts test
is satisfied if a defendant “delivers its products into
the stream of commerce with the expectation that they
will be purchased by consumers in the forum state.”
Beverly Hills Fan Co. v. Royal Sovereign Corp., 21
F.3d 1558, 1566 (Fed. Cir. 1994) (quoting World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 297-98
(1980)).
Upon a showing of purposeful minimum contacts,
the defendant bears the burden to prove unreason­
ableness. Elecs. for Imaging, Inc. v. Coyle, 340 F.3d
1344, 1351-52 (Fed. Cir. 2003). In rare circumstances,
a defendant may defeat the exercise of personal
jurisdiction by “present[ing] a compelling case that the
presence of some other considerations would render
jurisdiction unreasonable.” Burger King, 471 U.S. at
477.

7a
“Where, as here, a district court’s disposition as to
the personal jurisdictional question is based on
affidavits and other written materials in the absence
of an evidentiary hearing, a plaintiff need only to make
a prima fade showing that defendants are subject to
personal jurisdiction.” M-I Drilling Fluids UK Ltd. v.
Dynamic Air Ltda., 890 F.3d 995, 999 (Fed. Cir. 2018).
“[A] district court must accept the uncontroverted
allegations in the plaintiffs complaint as true and
resolve any factual conflicts in the affidavits in the
plaintiff s favor.” Id.
III. Discussion
TCT International argues that Semcon’s (“Sermon”)
stream of commerce argument is flawed because
“Semcon’s reliance on the stream of commerce theory
continues to neglect the Supreme Court’s 2017 BristolMyers Squibb decision, and in any event relies on TCT
[International]’s mere knowledge rather than showing
the required purposeful targeting.” (Dkt. No. 33, at 1.)
The Court disagrees with TCT International on
both points. The Court finds that jurisdiction over
TCT International is appropriate under the stream of
commerce theory. The Supreme Court’s recent BristolMeyers decision did not abrogate the stream of com­
merce theory. Moreover, while the Federal Circuit has
not yet determined whether the stream of commerce
theory requires “an action of the defendant purpose­
fully directed toward the forum state” or “a mere act of
placing a product in the stream of commerce with the
expectation that it would be purchased in the forum
state,” the Court finds that jurisdiction is proper in
this case under either version of the stream of com­
merce theory. Nuance Commc’ns, Inc. v. Abbyy Software
House, 626 F.3d 1222, 1233 (Fed. Cir. 2010) (quoting

8a
Asahi Metal Indus. Co. v. Superior Court of Cal., 480
U.S. 102, 112 (1987)).
A. Bristol-Myers did not Abrogate the Stream of
Commerce Theory
TCT International argues that the stream of com­
merce theory was abrogated by the Supreme Court’s
decision in Bristol-Myers Squibb Co. u. Superior Court
of California. 137 S. Ct. 1773 (2017). The Court finds
nothing in the Supreme Court’s opinion to indicate a
shift in the Supreme Court’s stream of commerce
jurisprudence. Neither the Supreme Court’s majority
opinion nor Justice Sotomayor’s dissent even mention
the stream of commerce theory. The Supreme Court
does not purport to alter its overall jurisprudence
regarding specific jurisdiction, noting instead that the
Supreme Court’s “settled principles regarding specific
jurisdiction control this case.” Id. at 1781.
In Bristol-Myers, the Supreme Court held that a
California state court could not exercise personal
jurisdiction over Bristol-Myers as to products liability
claims related to Bristol-Myers’ prescription drug Plavix
brought by nonresidents of California who “were not
prescribed Plavix in California, did not purchase Plavix
in California, did not ingest Plavix in California, and
were not injured by Plavix in California.”1 Id. The
Supreme Court rejected the argument that BristolMyer’s connection with a distributor in California was
sufficient to establish personal jurisdiction in California
as to injuries that occurred elsewhere, in part because
“‘he nonresidents have adduced no evidence to show
how or by whom the Plavix they took was distributed
1 Bristol Myers is incorporated in Delaware and headquartered
in New York with substantial operations in both New York and
New Jersey. Bristol-Myers, 137 S. Ct. at 1777-78.

9a
to the pharmacies that dispensed it to them.” Id. at
1783. In other words, the nonresident plaintiffs did not
show that their injuries “arise out of or relate to”
Bristol-Myers’ connection to California. Burger King
Corp., 471 U.S. at 472. By contrast, in this case, the
shipment of Accused Products to Texas directly relates
to Semcon’s claims of patent infringement. See 35
U.S.C. § 271(a).
Moreover, the Supreme Court did not hold that
Bristol-Myers’ activities were insufficient to establish
personal jurisdiction in the states where the plaintiffs’
injuries did occur. To the contrary, the Supreme Court
specifically noted that their decision, a “straightforward
application ... of settled principles of personal
jurisdiction,” did not prevent plaintiffs from pursuing
their claims in their home states. Bristol Meyers, 137
S. Ct. at 1783. Personal jurisdiction in such states
would likely rely on the stream of commerce theory.
However, the stream of commerce theory could not
establish jurisdiction in California where the plaintiffs
did not show that the particular stream of commerce
that caused their injury ran through California.2 Id.
While the Federal Circuit has not addressed the
stream of commerce theory since the Supreme Court’s
decision in Bristol-Myers, other Courts of Appeal have
continued to apply the theory. See, e.g., Pliocer Infl,
Inc. v. Scrutinizer GmbH, 905 F.3d 1, 8 (1st Cir. 2018);
In re DePuy Orthopaedics, Inc., Pinnacle Hip Implant
Prod. Litig., 888 F.3d 753, 778-81 (5th Cir. 2018); see
also Shaker v. Smith & Nephew, PLC, 885 F.3d 760,
2 Even if Bristol-Myers were fairly susceptible to TCT
International’s interpretation, the Supreme Court expressly declined
to decide whether the same result, decided under the 14th
Amendment as applied to state courts, would follow under the 5th
Amendment as applied to federal courts. 137 S. Ct. at 1784.

10a
780 (3d Cir. 2018) (approving of Justice O’Connor’s
purposeful availment stream of commerce theory).
Absent a clear statement to the contrary from the
Supreme Court or the Federal Circuit, this Court will
continue to apply the existing stream of commerce
jurisprudence.
B. Personal Jurisdiction is Appropriate Under
the Stream of Commerce Theory
TCT International argues that application of the
stream of commerce theory is inappropriate because
it “is neither a manufacturer nor a distributor of the
Accused Products in the US.” (Dkt. No. 33, at 6.)
However, TCT International cites no authority for
the proposition that the stream of commerce theory
applies only to the entities that manufacture the prod­
ucts and that ultimately sell the products to a retailer,
in other words, that it applies only at the beginning
and the end of the stream. Instead, TCT International
relies on the Beverly Hills Fan court’s holding that
personal jurisdiction may be asserted “over a corpora­
tion that delivers its products into the stream of
commerce with the expectation that they will be purchased by consumers in the forum State.” (Id. at 7
(emphasis in original) (quoting Beverly Hills Fan, 21
F.3d at 1566).) Yet, TCT International admits that it
purchases the Accused Products from TCL Huizhou
and in turn sells them to TCT US. (Dkt. No. 29-2, at
1.) When TCT International accepts legal title to the
Accused Products they become its products.
TCT International also argues that it does not make
sales in Texas nor does it intentionally direct products
at Texas. TCT International asserts that TCT US is
solely responsible for sales in the United States and
Texas. These arguments are similar to those rejected
by the Federal Circuit in Polar Electra Oy v. Suunto

11a
Oy, 829 F.3d 1343 (Fed. Cir. 2016). In Polar, Suunto
argued that personal jurisdiction over it was improper
because its sister entity, ASWO, imported the Accused
Products into the United States:
Suunto maintains that it entered into an
arms-length agreement with ASWO, pursu­
ant to which ASWO purchases products from
Suunto, takes title in Finland, and pays for
and directs shipments to the United States.
Suunto also maintains that it does not control
marketing, distribution, or sales in the United
States, and has not visited Delaware to market
the accused products.
829 F.3d at 1350. Nonetheless, the Federal Circuit
found that Suunto had sufficient contacts with the
forum state, Delaware, to sustain specific jurisdiction.
Id. The Federal Circuit, noting that Suunto had shipped
at least ninety-four accused products to Delaware,
found that “Suunto did not simply place its products in
the stream of commerce, with the products fortuitously
reaching Delaware as a result of the unilateral effort
of ASWO.” Id. at 1351. “Rather, ‘acting in consort’ with
ASWO, Suunto deliberately and purposefully shipped
the accused products to Delaware retailers.” Id. (quot­
ing Beverly Hills Fan, 21 F.3d at 1566).
Similarly, in this case, Semcon has adduced evi­
dence that TCT International regularly ships Accused
Products ordered by TCT US to a warehouse in Fort
Worth, Texas. (Dkt. No. 29-5, Exs. D-l-4; Dkt. No. 296, Exs. E-l-4.) TCT US complains that one of these
invoices appears to evince a sale between TCT US and
TCL Huizhou, whose name appears on the header of
the invoice. (Dkt. No. 29-5, Ex. D-l.) However, the
remaining seven invoices contain no such header.
Rather, these invoices list TCT International’s name

12a
and address in Hong Kong in the footer of the invoice.
(Dkt. No. 29-5, Ex. D-2-4; Dkt. No. 29-6, Exs. E-l-4.)
These invoices show that TCT International has shipped
more than 27,000 Accused Products to Texas since
2015. (Id.) Moreover, TCT International’s Rule 30(b)(6)
witness, Mr. Eric Chan, testified that the company
was aware that millions of Accused Products were
shipped to Fort Worth, Texas over the last five years.
(Dkt. No. 29-4, 25:3-26:17.) Indeed, Mr. Chan testified
that he personally travelled to Texas in his capacity as
an employee of TCT International to “take a look at
the location of our handsets after they have been sold
to [TCT US].” (Dkt. No. 29-4, 26:21-27:15.) The Court
finds that this is sufficient evidence that, “acting in
consort” with TCT US, TCT International deliberately
and purposefully shipped Accused Products to Texas.
See Polar, 829 F.3d at 1350-51. Thus, the Court finds
that Semcon “has made a prima facie showing of
minimum contacts under all articulations of the
stream-of-commerce test.” Id. at 1351.
C. Exercising Personal Jurisdiction is Reason­
able and Fair
Finally, TCT International argues that it would be
unfair and unreasonable for the Court to exercise
personal jurisdiction over it. (Dkt. No. 14, at 8-9.) “The
Supreme Court advises that [this] factor applies only
sparingly.” Nuance, 626 F.3d at 1231. “When a defend­
ant seeks to rely on the ‘fair play and substantial
justice’ factor to avoid the exercise of jurisdiction by a
court that otherwise would have personal jurisdiction
over the defendant, ‘he must present a compelling case
that the presence of some other considerations would
render jurisdiction unreasonable.’” Id. (quoting Burger
King, 471 U.S. 462,477 (1985)). TCT International has
failed to make such a compelling case here.

13a
TCT International argues that its burden to defend
itself in Texas is substantial because it is located in
Hong Kong and, thus, it will be required to travel a
great distance and defend itself in a foreign legal sys­
tem which differs significantly from the legal system
in Hong Kong.3 (Dkt. No. 14, at 8.) If these factors
standing alone were sufficient to deprive U.S. courts of
jurisdiction, no holder of a U.S. patent could ever hale
a foreign infringer into court. To the contrary, the
Federal Circuit has made clear that “defeats of other­
wise constitutional personal jurisdiction ‘are limited to
the rare situation in which the plaintiffs interest and
the state’s interest in adjudicating the dispute in the
forum are so attenuated that they are clearly out­
weighed by the burden of subjecting the defendant to
litigation within the forum.’” Akro Corp. v. Luker, 45
F.3d 1541,1549 (Fed. Cir. 1995) (quoting Beverly Hills
Fan, 21 F.3d at 1568).
Importantly, TCT International’s arguments are not
specific to this Court, but would apply equally to any
District Court of the United States. However, this
Court “is part of the exclusive mechanism established
by Congress for the vindication of patent rights. The
fact that it [may have] unique attributes of which
3 TCT International also argues that Texas’s interest in
asserting jurisdiction is “significantly diminished” because TCT
International “has not directed any course of conduct at Texas.”
(Dkt. No. 14, at 9.) This argument, the factual premise of which
has already been rejected by the Court, is an argument directed
at the “minimum contacts” prong of the jurisdictional analysis,
not the “reasonable and fair” prong. Elecs. For Imaging, 340 F.3d
at 1351-52 (“Once the plaintiff has shown that there are sufficient
minimum contacts to satisfy due process, it becomes defendants’
burden to present a ‘compelling case that the presence of some
other considerations would render jurisdiction unreasonable.’”
(emphasis added) (quoting Burger King, 471 U.S. at 477)).

14a
plaintiff. . . has an interest in taking advantage does
not change the case.” Akro, 45 F.3d at 1549 (quoting
Beverly Hills Fan, 21 F.3d at 1568-69). “[T]hat it is to
plaintiffs advantage to adjudicate the dispute in the
district court’ that it has chosen ‘does not militate
against its right to have access to that court.’” Id.
(quoting Beverly Hills Fan, 21 F.3d at 1568). Moreover,
jurisdiction in this Court is neither unfair nor unrea­
sonable where TCT International “knew the destination
of its products, and its conduct and connections with
the forum state were such that it should have reason­
ably have anticipated being brought into court there.”
Nuance, 626 F.3d at 1234 (citing World-Wide Volkswagen,
444 U.S. at 292).
TCT International makes several additional argu­
ments in its reply brief that are also unavailing. (Dkt.
No. 22, at 8-10.) First, TCT International’s argument
that there is no interest in vindicating patent rights
where no patent infringement has occurred is a merits
argument inappropriate for this stage of the proceed­
ings. Second, whether Semcon has its principal place
of business in the district is not determinative of its
interest in proceeding in its chosen forum. Third,
whether this Court would have jurisdiction over TCT
US is irrelevant to whether jurisdiction over TCT
International is proper. Last, the Court finds that
Diece-Lisa Industries, Inc. v. Disney Store USA, LLC,
which held that “a non-exclusive license agreement
alone is insufficient to trigger personal jurisdiction
over the licensor,” is inapposite to the present case,
where no such basis for jurisdiction is alleged. No.
2:12-CV-400, 2017 WL 8786932, at *3 (E.D. Tex. Dec.
19, 2017).

15a
IV. Conclusion
For the reasons set forth herein, TCT International’s
Rule 12(b)(2) Motion to Dismiss (Dkt. No. 14) is
DENIED.
So ORDERED and SIGNED this 1st day of July,
2019.
/s/ Rodney Gilstrap__________
.
RODNEY GILSTRAP
UNITED STAT DISTRICT JUDGE

16a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CASE NO.: 2:18-CV-00194-JRG
Semcon IP Inc.,

Plaintiff,
v.
TCT Mobile International Limited and
TCL Communication Technology Holdings Limited,
Defendants.
Courtroom of the Honorable J. Rodney Gilstrap
Complaint Filed: 05/09/2018
Trial Date: TBA
DECLARATION OF ANMING YANG IN SUPPORT
OF MOTION TO DISMISS COMPLAINT FOR LACK
OF PERSONAL JURISDICTION
DECLARATION OF ANMING YANG
I, Anming Yang, pursuant to 28 U.S.C. § 1746,
declare as follows:
1. My name is Anming Yang. I reside in Shenzhen,
China. I am over the age of twenty one (21). I have
personal knowledge of the matters set forth herein and
each of them is true and correct.

17a
2. I submit this declaration in support of the Motion
to Dismiss Complaint for Lack of Personal Jurisdiction
filed herewith in the above captioned matter.
3. I am a Director of TCT Mobile International Ltd.,
a Hong Kong, China company (“TCT HK”) with a
registered place of business at 5th Floor Building 22E
No. 22 Science Park East Avenue, Hong Kong Science
Park, Shatin, New Territories, Hong Kong, China.
4. I have been appointed as Director of TCT HK
since 31 October 2017.
5. My general responsibilities include supervision of
activities of TCT HK.
6. TCT HK does not manufacture any products such
as those accused in the above captioned matter.
7. Huizhou TCL Mobile Communication Co, Ltd.
(“TCL Huizhou”) with a registered place of business at
No. 86 Hechang Qi Lu Xi, Zhongkai Gaoxin District,
Huizhou City, Guandong Province, China, manufac­
tures mobile phones in Huizhou City, Guangdong
Province, China.
8. TCT HK does not import mobile phones made by
TCL Huizhou into the U.S. nor the State of Texas.
Importations mean custom clearances.
9. TCT HK does not own any subsidiary companies
in the U.S. nor the State of Texas,
10. I do not have U.S. nor Texas sales responsibili­
ties for mobile phones made by TCL Huizhou.
11. TCT HK does not have sales representatives nor
employees in the U.S. nor State of Texas.
12. TCT HK does not sell mobile phones made by
TCL Huizhou in the State of Texas.

18a
13. TCT HK does not contract with resellers in the
U.S. nor State of Texas for selling mobile phones made
by TCL Huizhou.
14. TCT Mobile (US) Inc. (“TCT US”), a Delaware
corporation with its principal place of business at 25
Edelman, Suite 200, Irvine, California, imports and
sells mobile phones made by TCL Huizhou. TCT US
sells to resellers in the State of Texas.
I declare under penalty of perjury that the foregoing
is true and correct.
Signed on this 6th day of December, 2018
By: /s/ Anming Yang_____________
Name: Anming Yang
Title: Director
For: TCT Mobile International Ltd.

19a
APPENDIX D
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CIVIL ACTION NO. 2:18-CV-00194-jrg
Semcon IP Inc.,

Plaintiff,
v.
TCT Mobile International Limited and
TCL Communication Technology Holdings Limited,
Defendants.
SUPPLEMENTAL DECLARATION OF
ANMING YANG
Anming Yang, pursuant to 28 U.S.C. § 1746 hereby
declares as follows:
1. My name is Anming Yang. I reside in Shenzhen,
China. I am over the age of twenty one (21), I am of
sound mind, and I am otherwise competent to make
this Declaration. The facts set out in this Declaration
are based on my personal knowledge and each of them
is true and correct.
2. I submit this declaration in support of the Rule
12(b)(2) Motion to Dismiss filed by Defendant TCT
Mobile International Limited (“TCT HK”).
3. I am a Director of TCT HK, which is a Hong
Kong, China company with a registered place of busi­
ness at 5th Floor, Building 22E No. 22 Science Park

20a
East Avenue, Hong Kong Science Park, Shatin, New
Territories, Hong Kong, China.
4. My general responsibilities as Director of TCT
HK include the supervision of TCT HK’s activities.
5. The facts set forth below in paragraphs num­
bered 7 through 21, 23, and 24 are true and correct for
the time period six years prior to the filing of the
above-captioned lawsuit through today’s date.
6. As used herein, “accused products” has been defined
as “products that utilize SoCs and associated software
that perform DCVS or DVFS for power management,
including Qualcomm Snapdragon SoCs including at
least the Snapdragon 200, 400 and 615 SoCs” and
“Alcatel One Touch Idol 3, One Touch Pop Icon, and
One Touch Pop Mega LTE smartphones,” referenced
in Plaintiffs Complaint, and “Alcatel Idol 5S []
smartphone” and Alcatel A30 [] tablet” referenced
in Plaintiffs Response in the above-captioned suit.
This includes all products referenced in Plaintiffs
Complaint and Response.
7. TCT HK did not and does not manufacture the
accused products.
8. TCT HK did not and does not manufacture any
smartphone or tablet.
9. TCT HK did not and does not sell the accused
products to any person or entity in Texas.
10. TCT HK did not and does not sell any
smartphone or tablet to any person or entity in Texas.
11. TCT HK did not and does not sell the accused
products to a nationwide retailer in the United States.
12. TCT HK did not and does not own any
subsidiary companies in the United States.

21a
13. TCT HK did not and does not have an office,
mailing address, or place of business in Texas.
14. TCT HK did not and does not own or lease any
real property in Texas.
15. TCT HK did not and does not appoint an agent
for the service of process in Texas.
16. TCT HK was not and is not registered to do
business in Texas.
17. TCT HK did not and does not have employees.
TCT HK did not and does not have employees that
reside or work in Texas.
18. TCT HK did not and does not have any bank
accounts in Texas.
19. TCT 1-1K did not and does not license any
trademarks to any person or entity in Texas.
20. TCT HK has not entered into any agreements
for the accused products with any person or entity in
Texas.
21. TCT HK does not market or advertise the
accused products in Texas.
22. Exhibits C through M to Plaintiff Scmcon IP Int.’s
Response in Opposition to TCT Mobile International
Limited’s Rule 12(b)(2) Motion to Dismiss are not TCT
HK websites.
23. TCT Mobile (US) Inc. (“TCT US”), is a Delaware
corporation with its principal place of business at 25
Edelman, Suite 200, Irvine California. TCT US was
not and is not a subsidiary of TCT
24. TCT US—not TCT HK—did and do importation
and selling mobile phones and tablets into the United
States.

22a
I declare under penalty of perjury that the foregoing
is true and correct. Executed on February 15, 2019.
/s/Anming Yang__________
Anming Yang

23a
APPENDIX E
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CIVIL ACTION NO. 2:18-CV-00194-jrg
Semcon IP Inc.,

Plaintiff,
v.
TCT Mobile International Limited and
TCL Communication Technology Holdings Limited,
Defendants.
TCT MOBILE INTERNATIONAL LIMITED’S
FIRST SUPPLEMENTAL RESPONSES
AND OBJECTIONS TO
PLAINTIFF’S INTERROGATORIES
Defendant TCT Mobile International Limited (“TCT
HK”) serves these first supplemental objections and
responses to Plaintiff Semcon IP Inc.’s (“Plaintiff”) First
Set of Interrogatories (“Interrogatories”).
GENERAL OBJECTIONS
TCT HK hereby incorporates its objections from its
initial objections and responses to Plaintiffs First Set
of Interrogatories.

OBJECTIONS AND SUPPLEMENTAL
RESPONSES TO INTERROGATORIES
1. For the Relevant Time Period, for each of the
Accused Products, identify the location where the

24a
Accused Product is originally manufactured and the
Entity which manufactures the Accused Product,
identify the Path of the Accused Product from the
original manufacturer through the Accused Product’s
(1) entry into the United States; (2) clearance through
US. Customs; and (3) entry to Texas to the extent the
Accused Product reaches Texas; and identify each
Entity that either has legal title, rights and/or respon­
sibilities (e.g., consignor, consignee, bailor, bailee)
with respect to the Accused Product along the Path,
and in each instance explain the nature of said title,
right or responsibility.

SUPPLEMENTAL RESPONSE TO INTERROGATORY
NO. 1
TCT HK objects to this interrogatory as containing
multiple subparts that constitute at least three distinct
interrogatories. See Erfindergemeinschaft Uropep GbR
v. Eli Lilly & Co., 315 F.R.D. 191,196 (E.D. Tex. 2016)
(explaining when an interrogatory constitutes multiple
interrogatories). The Court’s Order Granting Jurisdic­
tional Discovery limits Plaintiff to five interrogatories.
See Order (ECF No. 24). TCT HK further objects to
this interrogatory to the extent that it seeks infor­
mation that is not relevant, is overly broad, and is not
proportional to the needs of the case, considering the
importance of the issues at stake in the action, the
amount in controversy, the parties’ relative access to
relevant information, the parties’ resources, the relative
importance of the limited jurisdictional discovery in
resolving the issues, and whether the burden or expense
of the proposed discovery outweighs its likely benefit.
Subject to and without waiving the foregoing objec­
tions, TCT HK responds as follows:
Huizhou TCL Mobile Communication Co. Ltd.
(“TCL. Huizhou”) manufactures the Accused Products

25a
in Huizhou City, Guangdong Province, China. TCL
Huizhou sells the products to TCT HK. TCT HK sells
the products to TCT Mobile (US) Inc. (“TCT US”) in
Hong Kong. TCT US imports the products into the
United States and sells the products in the United
States after importation.
2. For each Path of an Accused Product identified in
response to Interrogatory No. I, identify all agree­
ments between You and Affiliates or third-parties
relating to the importation, transfer, or shipment of
the Accused Product, and where a written agreements
does not exist, explain the nature of unwritten agree­
ment, custom, practice, or protocol relating to the
importation, transfer, or shipment of the Accused
Product, including identifying the corresponding time
period and how such a custom, practice, protocol arose
and was practiced.

SUPPLEMENTAL RESPONSE TO INTERROGATORY
NO. 2
TCT HK objects to this interrogatory to the extent
that it seeks information that is not relevant, is overly
broad, and is not proportional to the needs of the case,
considering the importance of the issues at stake in
the action, the amount in controversy, the parties’
relative access to relevant information, the parties’
resources, the relative importance of the limited
jurisdictional discovery in resolving the issues, and
whether the burden or expense of the proposed
discovery outweighs its likely benefit. Subject to and
without waiving the foregoing objections, pursuant
to Federal Rule of Civil Procedure 33(d), TCT HK
refers to the documents produced as TCT00000001—
TCT00002617.

26a
3. For each of the Accused Products, identify and
describe Your role with respect to their manufacture,
shipment, distribution, consignment, transportation,
importation, use, sale, offer for sale, marketing, adver­
tising, and customer support during the Relevant
Time Period, and for each such activity, identify the
geographic location associated with such activity and
any TCT Mark used under license in connection with
such activity, and for each licensed use of a TCT Mark,
identify the corresponding agreement and any benefit,
financial or otherwise, that You derive through Your
licensee’s use of Your Marks.
SUPPLEMENTAL RESPONSE TO INTERROGATORY
NO. 3
TCT HK objects to this interrogatory as containing
multiple subparts that constitute at least three distinct
interrogatories. See Erfindergemeinschaft Uropep GbR
u. Eli Lilly & Co., 315 F.R.D. 191,196 (E D. Tex. 2016)
(explaining when an interrogatory constitutes multiple
interrogatories). The Court’s Order Granting Jurisdic­
tional Discovery limits Plaintiff to five interrogatories.
See Order (ECF No. 24). TCT HK objects to this
interrogatory to the extent that it seeks information
that is not relevant, is overly broad, and is not pro­
portional to the needs of the case, considering the
importance of the issues at stake in the action, the
amount in controversy, the parties’ relative access to
relevant information, the parties’ resources, the rela­
tive importance of the limited jurisdictional discovery
in resolving the issues, and whether the burden or
expense of the proposed discovery outweighs its likely
benefit. Subject to and without waiving the foregoing
objections, TCT HK responds as follows:
TCT incorporates its response to Interrogatory Nos.
I and 2, TCT HK does not manufacture the Accused

27a
Products. TCT HK has not entered into any agree­
ments for any TCT Mark. TCT HK’s role with respect
to the Accused Products is that of facilitator, in Hong
Kong, China, between manufacturer TCL Huizhou
and importer/seller TCT US.
4. Describe the nature of Your relationship with all
of Your U.S. Affiliates including TCT Mobile (US) Inc.
(see Dkt. 14-1 at ^[14 in this Action) and TCT Mobile
Limited (see Dkt. 23-3 at 2 in this Action) during the
Relevant Time Period, including an identification of
any written agreements; description of unwritten agree­
ments, customary practices and protocols; and an
identification of all instances of overlapping personnel,
employees, secondees, interns, directors and/or officers
between You and the U.S. Affiliates, whether said
individuals had one role with You and the same or
different role with the U.S. Affiliate.
SUPPLEMENTAL RESPONSE TO INTERROGATORY
NO. 4
TCT HK objects to this Interrogatory as confusing
and lacking foundation to the extent it characterizes
TCT Mobile (US) Inc. or TCT Mobile Limited as TCT
HK’s Affiliate in view of the definition of the term
“Affiliate” to be used in these interrogatories. TCT HK
further objects to the term “TCT Mobile Limited”
as vague, ambiguous, and confusing. Subject to and
without waiving the foregoing objections, TCT HK
responds as follows:
TCT HK has no U.S. Affiliates as that term is
defined for these interrogatories. TCT incorporates its
response to Interrogatory No. 2.
5. Describe all activities of a business nature that
You or Your employees engaged in the U.S. during the
Relevant Time Period relating to the Accused Products

28a
including, without limitation, appearances at trade
shows, conferences, and conventions; meetings involv­
ing marketing, promoting, selling or offering to sell the
Accused Products; and meetings with U.S. Affiliates,
customers, end-customers and/or third-parties.
SUPPLEMENTAL RESPONSE TO INTERROGATORY
NO. 5
TCT HK objects to this Interrogatory as lacking
foundation to the extent it characterizes TCT HK as
engaging in activities relating to the Accused Products
in the U.S. Subject to and without waiving the fore­
going objections, TCT HK responds as follows:
TCT HK did not and does not engage in any business
activities in the U.S., such as appearances at trade
shows, conferences, and conventions; meetings involv­
ing marketing, promoting, selling or offering to sell the
Accused Products; and meetings with U.S. Affiliates,
customers, end-customers and/or third-parties.
Date: April 16, 2019
Respectfully submitted,
s/ CalliA. Turner
Ya-Chiao Chang
Texas Bar No. 24070992
ychang@mwechinalaw. com
MWE CHINA LAW OFFICES
28th Floor, Jinmao Tower
88 Century Ave.
Shanghai 200121 China

+86 21 6105 0947
+86 21 6105 0501 (facsimile)

29a
Calli A. Turner
Texas Bar No. 24088558
cturner@mwe. com
MCDERMOTT WILL & EMERY LLP
2501 N. Harwood, Suite 1900
Dallas, TX 75201
(214) 295-8056
(972) 232-3098 (facsimile)
'i

ATTORNEYS FOR DEFENDANT TCT
MOBILE INTERNATIONAL LIMITED
CERTIFICATE OF SERVICE
I hereby certify that on April 16, 2019, a true and
correct copy of the foregoing document was served on
counsel for Plaintiff by email transmission.
s/ Calli Turner
Calli Turner

30a
APPENDIX F
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CIVIL ACTION NO. 2:18-CV-00194-jrg
Semcon IP Inc.,
Plaintiff,
v.
TCT Mobile International Limited and
TCL Communication Technology Holdings Limited,
Defendants.
TCT MOBILE INTERNATIONAL LIMITED’S
RESPONSES AND OBJECTIONS TO
PLAINTIFF’S INTERROGATORIES
Defendant TCT Mobile International Limited (“TCT
HK”) serves these objections and responses to Plaintiff
Semcon IP Inc.’s (“Plaintiff’) First Set of Interrogatories
(“Interrogatories”).
GENERAL OBJECTIONS
1. TCT HK reserves the right to alter or amend its
objections and responses as set forth herein as addi­
tional facts are ascertained and analyses are made.
The following general objections apply to each and
every response contained herein and are incorporated
by reference as if fully set forth in the specific responses
below. The failure to mention one or more of the
following general objections in the specific responses

31a
below shall not be deemed a waiver of such objection
or objections.
2. TCT HK objects to the Interrogatories, including
the instructions contained therein, to the extent that
they impose or purport to impose upon TCT HK any
requirement or obligation beyond those required by
the Federal Rules of Civil Procedure or the Court’s
Order Granting Jurisdictional Discovery (ECF No. 24).
3. TCT HK objects to the definition of “TCT Mobile,”
“Defendant,” “You,” and Your” as being overly broad,
vague, ambiguous, and confusing. For the purpose
of its responses, TCT HK construes “TCT Mobile,”
“Defendant,” You,” and Your” to mean “TCT HK, its
predecessors-in-interest, successors-in-interest, and
agents.”
4. TCT HK objects to the definition of “TCT
Product(s)” and “Accused Products” as overly broad
and seeking information that is not relevant. For the
purpose of its responses, TCT HK construes “TCT
Product(s)” and “Accused Products” to mean “products
that utilize System-on-a-Chip (SoCs) and ‘associated
software that perform DCVS or DVFS for power
management, including Qualcomm Snapdragon SoCs
including at least the Snapdragon 200, 400 and 615
SoCs’ and ‘Alcatel One Touch Idol 3, One Touch Pop
Icon, and One Touch Pop Mega LTE smartphones,”’ as
referenced in. Plaintiffs Complaint, and “Alcatel Idol
5S smartphone’ and ‘Alcatel A30 tablet,”’ as referenced
in Plaintiffs Response to TCT HK’s Motion to Dismiss.
5. TCT HK objects to Plaintiffs competing defini­
tions of “Person” as confusing.

32a
OBJECTIONS AND RESPONSES TO
INTERROGATORIES
1. For the Relevant Time Period, for each of the
Accused Products, identify the location where the
Accused Product is originally manufactured and the
Entity which manufactures the Accused Product, iden­
tify the Path of the Accused Product from the original
manufacturer through the Accused Product’s (1) entry
into the United States; (2) clearance through U.S.
Customs; and (3) entry to Texas to the extent the
Accused Product reaches Texas; and identify each Entity
that either has legal title, rights and/or responsibili­
ties (e.g., consignor, consignee, bailor, bailee) with
respect to the Accused Product along the Path, and in
each instance explain the nature of said title, right or
responsibility.
TCT HK objects to this interrogatory as containing
multiple subparts that constitute at least three dis­
tinct interrogatories. See Erfindergemeinschaft Uropep
GbR v. Eli Lilly & Co., 315 F.R.D. 191, 196 (E.D. Tex.
2016) (explaining when an interrogatory constitutes
multiple interrogatories). The Court’s Order Granting
Jurisdictional Discovery limits Plaintiff to five inter­
rogatories. See Order (ECF No. 24). TCT 11K further
objects to this interrogatory as seeking information
that is not relevant, as being overly broad, and as being
unproportional to the needs of the case, considering
the importance of the issues at stake in the action, the
amount in controversy, the parties’ relative access to
relevant information, the parties’ resources, the relative
importance of the limited jurisdictional discovery in
resolving the issues, and whether the burden or
expense of the proposed discovery outweighs its likely
benefit. Subject to and without waiving the foregoing,
Huizhou TCL Mobile Communication Co. Ltd. (“TCL

33a
Huizhou”) manufactures the Accused Products in
Huizhou City, Guangdong Province, China. TCT HK
does not manufacture the Accused Products.
2. For each Path of an Accused Product identified in
response to Interrogatory No. 1, identify all agree­
ments between You and Affiliates or third-parties
relating to the importation, transfer, or shipment of
the Accused Product, and where a written agreements
does not exist, explain the nature of unwritten agree­
ment, custom, practice, or protocol relating to the
importation, transfer, or shipment of the Accused
Product, including identifying the corresponding time
period and how such a custom, practice, protocol arose
and was practiced.
TCT HK objects to this interrogatory as seeking
information that is not relevant, as being overly broad,
and as being unproportional to the needs of the case,
considering the importance of the issues at stake in
the action, the amount in controversy, the parties’
relative access to relevant information, the parties’
resources, the relative importance of the limited juris­
dictional discovery in resolving the issues, and whether
the burden or expense of the proposed discovery out­
weighs its likely benefit
3. For each of the Accused Products., identify and
describe Your role with respect to their manufacture,
shipment, distribution, consignment, transportation,
importation, use, sale, offer for sale, marketing, adver­
tising, and customer support during the Relevant
Time Period, and for each such activity, identify the
geographic location associated with such activity and
any TCT Mark used under license in connection with
such activity, and for each licensed use of a TCT Mark,
identify the corresponding agreement and any benefit,

34a
financial or otherwise, that You derive through Your
licensee’s use of Your Marks.
TCT HK objects to this interrogatory as containing
multiple subparts that constitute at least three distinct
interrogatories. See Edindergemeinschaft Uropep GbR
v. Eli Lilly & Co., 315 F.R.D. 191,196 (E.D. Tex. 2016)
(explaining when an interrogatory constitutes multiple
interrogatories). The Court’s Order Granting Jurisdic­
tional Discovery limits Plaintiff to five interrogatories.
See Order (ECF No. 24). Subject to and without
waiving the foregoing, TCT HK does not manufacture
the Accused Products. TCT HK does not sell the Accused
Products to any person or entity in Texas. TCT HK
does not sell the Accused Products to a nationwide
retailer in the United States. Instead, TCT HK only
ships the Accused Products to TCT Mobile (US) Inc. in
California. TCT Mobile (US) Inc. is not an Affiliate of
TCT HK. TCT HK did not and does not have any bank
accounts in Texas. TCT HK did not and does not
license any trademarks to any person or entity in
Texas. TCT HK has not entered into any agreements
for the Accused Products with any person or entity in
Texas.
4. Describe the nature of Your relationship with all
of Your U.S. Affiliates including TCT Mobile (US) Inc.
(see Dkt. 14-1 at fl4 in this Action) and TCT Mobile
Limited (see Dkt. 23-3 at 2 in this Action) during the
Relevant Time Period, including an identification of
any written agreements; description of unwritten agree­
ments, customary practices and protocols; and an
identification of all instances of overlapping personnel,
employees, secondees, interns, directors and/or officers
between You and the U.S. Affiliates, whether said
individuals had one role with You and the same or
different role with the U.S. Affiliate.

35a
TCT HK objects to this Interrogatory to the extent it
characterizes TCT Mobile (US) Inc. or TCT Mobile
Limited as TCT HK’s Affiliate. TCT HK further objects
to the term “TCT Mobile Limited” as vague, ambigu­
ous, and confusing. Subject to and without waiving the
foregoing, TCT HK has no U.S. Affiliates.
5. Describe all activities of a business nature that
You or Your employees engaged in the U.S. during the
Relevant Time Period relating to the Accused Products
including, without limitation, appearances at trade
shows, conferences, and conventions; meetings involv­
ing marketing, promoting, selling or offering to sell the
Accused Products; and meetings with U.S. Affiliates,
customers, end-customers and/or third-parties.
TCT HK objects to this Interrogatory to the extent it
characterizes TCT HK as engaging in activities relat­
ing to the Accused Products. Subject to and without
waiving the foregoing, TCT HK did not and does not
engage in any business activities in the U.S., such as
appearances at trade shows, conferences, and conven­
tions; meetings involving marketing, promoting, selling
or offering to sell the Accused Products; and meetings
with U.S. Affiliates, customers, end-customers and/or
third-parties.
Respectfully submitted,
s / Daniel R. Foster
Daniel R. Foster
California Bar No. 179753
dfoster@mwe .com
MCDERMOTT WILL & EMERY LLP
18565 Jamboree Road, Suite 250
Irvine, CA 92612-2565
(949) 851-0633
(949) 851-9348 (facsimile)

36a
Ya-Chiao Chang
Texas Bar No. 24070992
ychang@mwechinalaw .com
MWE CHINA LAW OFFICES
28th Floor, Jinmao Tower
88 Century Ave.
Shanghai 200121 China

+86 21 6105 0947
+86 21 6105 0501 (facsimile)
Calli A. Turner
Texas Bar No. 24088558
cturner@mwe. com
MCDERMOTT WILL & EMERY LLP
2501 N. Harwood, Suite 1900
Dallas, TX 75201
(214) 295-8056
(972) 232-3098 (facsimile)
ATTORNEYS FOR DEFENDANT TCT
MOBILE INTERNATIONAL LIMITED
CERTIFICATE OF SERVICE
I hereby certify that on March 22, 2019, a true and
correct copy of the foregoing document was served on
counsel for Plaintiff by email transmission.
s / Calli Turner
Calli Turner

